           Office of Inspector General




April 28, 2005

MICHAEL L. GOODWIN
MANAGER, SOUTHEAST FACILITIES SERVICE OFFICE

SUBJECT: Management Advisory – Environmental Remediation Project at the
         Pompano Beach Auxiliary Vehicle Maintenance Facility
         (Report Number FA-MA-05-001)

This report presents the results of our review of the environmental remediation project
at the Pompano Beach Auxiliary Vehicle Maintenance Facility (VMF), Pompano Beach,
Florida (Project Number 05XG010FA000). This time-sensitive issue came to our
attention during liaison meetings with the Southeast Facilities Service Office (FSO), who
expressed concern that a June 2004 request for additional funding for this federal-,
state-, and county-mandated project lacked approval as of January 2005. The FSO
asked the Office of Inspector General (OIG) to help determine why the funding had not
been approved. In cooperation with the Southeast FSO and Southeast Area personnel,
we researched the funding delay and delinquent payment of the annual licensing fees
associated with the project. Our cooperative effort resolved the funding delay and
helped the Postal Service avoid up to $25,000 per day in potential fines as well as any
potential negative publicity that may have resulted from failure to comply with regulatory
requirements. The potential fines resulting from noncompliance with statutory
requirements represent funds put to better use and will be reported as such in our
Semiannual Report to Congress (see Appendix A).

                                         Background

Environmental testing that followed the July 1998 removal of an underground storage
tank at the Pompano Beach Auxiliary VMF identified soil and water contamination at the
site. To address this issue, the Postal Service secured the services of an environmental
consultant and active remediation at the site began on September 24, 2001. On
May 29, 2003, the site entered the post-remediation monitoring phase. The
second post-active remediation quarterly report submitted to the Broward County
Department of Planning and Environmental Protection on February 17, 2004, indicated
contaminant concentrations had rebounded to levels above Florida’s groundwater
cleanup target levels. As a result, on March 17, 2004, the Broward County Department
of Planning and Environmental Protection issued a letter requiring the Postal Service to
resume active remedial system operation and maintenance and groundwater sampling
from the entire well network.

   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
Environmental Remediation Project at the Pompano                                FA-MA-05-001
 Beach Auxiliary Vehicle Maintenance Facility


Consequently, the environmental consultant revised the scope of work to include the
additional state-mandated requirements and submitted the proposal to the Southeast
FSO facilities environmental specialist on April 13, 2004. The estimated cost for the
change in scope was approximately $50,000. According to the specialist, the FSO
requested funding to cover the revised scope of work in June 2004. However, as of
January 2005, the request had not been approved.

The next quarterly monitoring report was due to the Broward County Department of
Planning and Environmental Protection by April 1, 2005. Without funding, the Postal
Service could not procure the additional services required to comply with the statutory
requirements. Noncompliance with the requirements could result in significant fines as
well as lead to negative publicity for the Postal Service. In their response to the draft
report, management stated that the required reports were completed and submitted to
Broward County on March 31, 2005, thus avoiding any fines.

                         Objective, Scope, and Methodology
The objective of this review was to evaluate both the status of funding for the
environmental remediation project and compliance with applicable laws and regulations.
To accomplish our objective, we reviewed documents related to the existing
environmental remediation project at the Pompano Beach Auxiliary VMF. We also
conducted interviews with Postal Service officials from the Southeast FSO and the
Southeast Area. Although we relied on data obtained from Facilities Management
System Windows (FMSWIN), we did not test the validity of the data and controls over
the system.

We conducted our review from January through April 2005, in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
discussed our observations and conclusions with appropriate management officials on
February 10, 2005, and included their comments, where appropriate.

                                   Prior Audit Coverage

We did not identify any prior audits related to the objective of this review.

                                             Results

Funding for the ongoing Pompano Beach Auxiliary VMF environmental remediation
project was almost exhausted and, as of January 2005, additional funding requested in
June 2004 for the project had not been approved. Without funding, the Postal Service
could not procure the additional services required to comply with federal-, state-, and
county-mandated environmental remediation requirements. Specifically, the Postal
Service needed these services to comply with the order to resume active remediation
and groundwater sampling from the entire well network. The next quarterly monitoring




                                                   2
Environmental Remediation Project at the Pompano                              FA-MA-05-001
 Beach Auxiliary Vehicle Maintenance Facility


report was due to the Broward County Department of Planning and Environmental
Protection by April 1, 2005.

We reviewed the project files and the FMSWIN tracking system, but were unable to
locate documentation for the funding request. Postal Service personnel informed us
that the request was inadvertently deleted in error from the FMSWIN system. We
brought this issue to the attention of officials at the Southeast Area office, Southeast
FSO and South Florida District office, and they agreed that environmental remediation
issues are a high priority of the Postal Service and the project must be funded. During
our review, the Southeast FSO prepared a request for additional funding for the project,
which the Southeast Area vice president approved on February 7, 2005. Our
cooperative effort helped the Postal Service avoid up to $25,000 per day in potential
fines and any negative publicity that might have resulted (see Appendix A). The
additional funding allowed the Postal Service to comply with the state-mandated
reporting requirement date of April 1, 2005, and avert potential fines.

We also noted that the annual fee for the Environmental Assessment Remediation
License was paid on January 19, 2005, even though it was due on December 17, 2004.
Broward County requires an annual fee for review of Postal Service documents
pertaining to the ongoing groundwater contamination remediation project and the review
fee must be paid until the site is clean, all the monitoring wells are closed, and Broward
County issues a “No Further Action” notice. Postal Service personnel informed us that
the last two payments of the review fees associated with this project have been
delinquent. Postal Service FSO and area officials agreed that the Postal Service needs
a tracking system to monitor this expense to ensure prompt payment.

Postal Service Handbook RE-6, Facilities Environmental Guide, November 2004,
requires the Postal Service to comply with all federal laws and regulations developed
under the Clean Water Act, the Oil Pollution Act, and all state and local
requirements regarding control and abatement of water pollution. Management
Instruction AS-550-95-9, Underground Storage Tank Management, states “the Postal
Service is required to pay reasonable applicable permit fees as long as they are not
discriminatory–that is, if all entities, including state agencies, must pay comparable
fees.”

The Environmental Protection Agency’s (EPA) underground storage tank (UST)
regulations require the responsible parties to clean up contaminated UST sites to
restore and protect groundwater resources. Subtitle I of the Resource Conservation
and Recovery Act (RCRA) grants EPA's authority for assessing civil penalties for
violations of UST requirements. RCRA also authorizes the EPA to take enforcement
actions and assess penalties against violators of requirements promulgated under
Subtitle I. RCRA Section 9006 authorizes the EPA to issue administrative orders
requiring compliance with UST regulations within a reasonable specified time period.
The EPA may initiate judicial enforcement actions to compel compliance with Subtitle I's
statutory and regulatory requirements. Under such actions, the EPA is authorized to




                                                   3
Environmental Remediation Project at the Pompano                              FA-MA-05-001
 Beach Auxiliary Vehicle Maintenance Facility


seek judicial penalties of up to $25,000 for each day of continued noncompliance with
an administrative order. Subtitle I of RCRA allows EPA-approved state UST programs
to operate in lieu of the federal program if such programs contain requirements for UST
systems that are "no less stringent" than the federal requirements and for which there is
"adequate enforcement" of compliance. Most states, including Florida, have developed
and implemented their own comprehensive UST programs.

Recommendations

We recommend the manager, Southeast FSO, direct personnel to:

   1. Coordinate with the contracted environmental consultant to confirm submission
      of required reports by April 1, 2005, or, if necessary, request an extension from
      Broward County.

   2. Coordinate with the Southeast Area to establish a procedure to monitor and track
      regulatory actions and costs for the environmental remediation project.

Management’s Comments

Management agreed with the recommendations and stated that the required reports
were completed and submitted to Broward County on March 31, 2005, thus avoiding
any fines. Management also stated that the Southeast FSO will take the lead in
developing a tracking system for all on-going underground storage tank monitoring
activities involving regulatory compliance with state and local entities. The tracking
system will be completed within 90 days after issuance of the final audit report.
Management’s comments, in their entirety, are included in Appendix B of this report.

Evaluation of Management’s Comments

Management’s comments are responsive to recommendations 1 and 2, and actions
taken and planned should correct the issues identified in the finding.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact
Janet Sorensen, Audit Manager, or me at (703) 248-2300.



Colleen A. McAntee
Deputy Assistant Inspector General
 for Field Operations

Attachments




                                                   4
Environmental Remediation Project at the Pompano       FA-MA-05-001
 Beach Auxiliary Vehicle Maintenance Facility


cc: Patrick R. Donahoe
    Rudolph K. Umscheid
    William J. Brown
    Steven R. Phelps




                                                   5
Environmental Remediation Project at the Pompano                                                   FA-MA-05-001
 Beach Auxiliary Vehicle Maintenance Facility


                                    APPENDIX A. DESCRIPTION OF MONETARY IMPACT
                        Finding                                                    Funds Put to Better Use

   Recommendation No.                 Title
                         Coordinate with the
                         contracted environmental
                         consultant to confirm
                         submission of required
            1            reports by April 1, 2005, or,                 $25,000
                         if necessary, request an
                         extension from Broward
                         County
                        Totals                                         $25,000

                                                         The Postal Service could avoid up to $25,000 per day in potential fines and
                      Description                        any negative publicity that may have resulted from a failure to file required
                                                         reporting.

                                                         The OIG and Postal Service management officials agreed that limiting the
                  Calculation of basis                   monetary benefits claimed to the maximum daily fine of $25,000 represents
                                                         a conservative estimate of fines.

                                                         There are no implementation costs.
                 Implementation costs




                                                                          6
Environmental Remediation Project at the Pompano       FA-MA-05-001
 Beach Auxiliary Vehicle Maintenance Facility




                  APPENDIX B. MANAGEMENT’S COMMENTS




                                                   7
